                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: A11080053                                                                          Page 1 of 1



                  A university 1 notified us that a student2 had admitted to falsifying data in a pre-publication
          manuscript and a presentation. The university research misconduct policy included a provision that
          if the subject made an admission of misconduct, the university could move immediately to final
          decision and action. Accordingly the university took the final action prior to completing an inquiry
          and expelled the student. Because both NSF and NIH funding were potentially involved, the
          university notified both of the finding of misconduct. Subsequently, the Department ofHealth and
          Human Services Office of Research Integrity entered into a voluntary settlement agreement with the
          student.

                  The university initially identified a NSF award 3 as funding the affected work. The student's
          advisor4 was the PI on the award. The university later revised its assessment, noting that the student
          did not receive salary from the NSF award. However, we identified an annual report for an NSF
          award that included a publication5 with the PI and the student as coauthors. Despite this connection
          to NSF, there is insufficient evidence that the student' s admitted misconduct extended to work
          reported in that publication.

                    Accordingly, this case is closed.




NSF OIG Form 2 (11 /02)
